WORKERS’ COMPENSATION TRAUMATIC
          INJURY CLAIMS
       Federal Aviation Administration

         Report Number AV-2003-011
         Date Issued: January 17, 2003
                                                           Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Workers’ Compensation                  Date:    January 17, 2003
           Traumatic Injury Claims
           Report No. AV-2003-011

  From:    Alexis M. Stefani                                      Reply to

           Principal Assistant Inspector General
                                                                  Attn of:   JA-10:x60500
            for Auditing and Evaluation

    To:    Federal Aviation Administrator

           This is our final report on Workers’ Compensation Traumatic Injury Claims within the
           Federal Aviation Administration’s Air Traffic Services line of business. Workers’
           compensation cases can be grouped into two broad categories. The first category,
           long-term cases, involves claimants who have been disabled for over a year and are
           not expected to return to work. The second category, traumatic injury claims, involves
           claimants who experience a physical or stress-induced injury as a result of a traumatic
           event. These claimants can receive up to 45 days off with continuation of pay to
           recuperate from their injuries.

           In fiscal year 2002, Air Traffic Services incurred approximately $1.7 million in
           operating costs to pay salaries for employees out on traumatic injury claims. That
           amount represents a 39 percent increase over the past 4 years as compared to total
           workers’ compensation program costs, which increased by less than 5 percent during
           the same period.

           Our review of the workers’ compensation program within Air Traffic Services found
           indications of potential fraud and/or abuse involving stress-related traumatic injury
           claims, and we have forwarded this information to our Office of Investigations for
           further review. We were unable, however, to determine whether the cases we saw are
           indicative of systemic problems, because Air Traffic Services does not require
           facilities to track information on stress-related traumatic injury claims.
                                                                                          2


At the locations we visited, we found that the data tracked on traumatic injury claims
varied extensively from location to location. For example, at two facilities we visited,
managers regularly tracked the historical data of claims, the status of claimants, the
number of days taken, the number of claims submitted by each employee, and the total
costs associated with each claim. In contrast, managers at another facility had
virtually no idea about the nature or extent of claims at their location, the related costs,
or even whether the Department of Labor approved the claims.

If information on traumatic injury claims is documented, it can provide management
with trends in claims and costs that could identify problem areas or potential fraud.
We are recommending that Air Traffic Services adopt the best practices used at some
locations, and require all facility managers to track data associated with traumatic
injury claims in order to identify potential cases of fraud or abuse.

If managers suspect potential fraud or abuse of traumatic injury claims, they should
contact the Department of Transportation Inspector General’s Hotline at
(800) 424-9071.

OBJECTIVE AND SCOPE

The objective of our review was to evaluate the Federal Aviation Administration’s
(FAA) oversight of the workers’ compensation program within Air Traffic Services to
ensure that the program was properly managed to prevent unnecessary costs. We
conducted the review between December 2001 and June 2002 at FAA Headquarters,
two regional offices, and six field facilities within those two regions.

Our review focused on workers’ compensation claims within Air Traffic Services for
the period October 1, 1998, through September 1, 2001. The methodology used in
this review can be found in the Exhibit.

BACKGROUND

The workers’ compensation program is administered by the Department of Labor and
provides benefits to civilian employees of the United States for injuries sustained
while working. The Department of Labor makes benefit payments to the claimants
and annually bills FAA for these costs related to FAA employees. FAA is then
reimbursed for these costs through an annual appropriation. In fiscal year (FY) 2002,
workers’ compensation costs for FAA were approximately $88 million—over
$76 million (87 percent) of these costs were for Air Traffic Services.
                                                                                        3


Within the program, workers’ compensation cases can be grouped into two broad
categories. The first category, long-term cases, involves claimants who have been
disabled for over a year and are not expected to return to work. The second category,
traumatic injury claims, involves claimants who experience a physical or stress-
induced injury as a result of a traumatic event. These claimants can receive up to
45 days off with continuation of pay (COP) to recuperate from their injuries.
Traumatic injury claims can be filed for physical injuries, such as back injuries, or
stress-related injuries, such as when a controller experiences an incident or accident
involving aircraft under his or her control.

RESULTS

We found that Air Traffic Services has an opportunity to reduce its operating costs by
improving oversight of traumatic injury claims involving COP. Although long-term
cases represent the greatest portion of workers’ compensation costs, we found several
significant reasons for Air Traffic Services to focus its immediate efforts on traumatic
injury claims involving COP.

Traumatic Injury Claim Costs Have Risen Significantly Over the
Past 4 Years
Unlike long-term claims, which are reimbursed through an annual appropriation,
salaries for employees receiving COP come directly out of FAA’s operating budget.
In FY 2002, Air Traffic Services incurred approximately $1.7 million in operating
costs to pay salaries for employees on COP for traumatic injuries.

That amount represents a 39 percent increase over the past 4 years as compared to
total workers’ compensation program costs, which increased by less than 5 percent
during the same period. These costs do not include overtime expenses that many
facilities incur in order to fill-in for employees out on COP. Those costs can be
significant. For example, at one location we visited, the facility’s overtime costs
associated with COP increased from $153,000 to over $400,000 in a single year—an
increase of over 160 percent.

We found that the majority of traumatic injuries claimed by controllers are stress-
related, and an increasing number of these claims are being filed. For example, at
1 field facility we visited, the number of individuals filing stress-related injury claims
involving COP nearly doubled in 1 year, going from 34 to 60. Additionally, the
average number of days an individual was off duty on COP increased from 10 days to
18 days at that location.
                                                                                                                         4


       FAA Managers Expressed Concerns About Potential Abuse of
       Traumatic Injury Claims
       At five of the six field facilities we visited, FAA managers expressed concerns
       regarding possible abuse of stress-related traumatic injury claims. At several
       locations, we found stress-related claims were being filed by controllers who were
       simply present when another controller was involved in an operational error,1 and did
       not experience the error themselves. For example,

       • A husband and wife both filed stress-related injury claims on the same day, when
         only one of them was actually involved in an operational error. This happened
         twice within 2 years. Their total time off on COP amounted to 165 days.

       • Three controllers and a supervisor at one facility filed stress-related injury claims
         for the same operational error, when only one of them was directly involved. The
         total time off on COP for these employees amounted to 140 days.

       • Controllers at one facility continued working normal operations following an
         incident and did not file a traumatic injury claim for stress until 4 or 5 days later,
         when they learned they had been charged with an operational error.

       We also found controllers filed stress-related claims for a variety of other questionable
       reasons in what appears to be a way of receiving additional paid time off. For
       example,

       • A controller at one facility filed a stress-related claim in January, and then sent a
         letter to the facility asking that his mail be redirected to Florida during his time off
         on COP. He received the full 45 days off on COP.

       • Another controller was “traumatized” when he observed a supervisor make an
         offensive gesture at another controller. This individual filed a traumatic injury
         claim for stress from observing the incident and received 3 days off on COP.

       We also found cases of controllers who, over the years, have filed multiple claims for
       stress-related injuries. For example,

       • One controller at a field facility we visited filed seven claims for stress-related
         injuries in just over 6 years, receiving 119 days off on COP.



1
    An operational error occurs when a controller fails to maintain distance separation requirements between aircraft.
                                                                                      5


• Another controller at the same facility filed three stress-related injury claims
  within 6 months and received a total of 100 days off on COP.

Further, we found many of the stress-related injury claimants were repeatedly
diagnosed by the same doctors. At one facility, we found that virtually all stress-
related injury claimants went to the same two psychologists. These doctors, who
distributed their cards at the facility, performed the same tests on each controller,
completed a form letter on the individual, and specified the necessary time for
recuperation. For these services, the doctors received payments from the Government
of up to $500 per claim.

Where cases in our review showed indications of fraud and/or abuse, we forwarded
them to our Office of Investigations for further review. However, we were unable to
determine whether the cases we saw are indicative of systemic problems, because Air
Traffic Services does not require facilities to track information on traumatic injury
claims.

At the locations we visited, we found that the data tracked on traumatic injury claims
varied extensively from location to location. For example, at two facilities we visited,
managers regularly tracked the historical data of claims, the status of claimants, the
number of COP days taken, the number of claims submitted by each employee, and
the total COP and related overtime costs.

In contrast, managers at another facility had virtually no idea about the nature or
extent of claims at their location, the related costs, or even whether the Department of
Labor approved the claims. If information on traumatic injury claims is documented,
it can provide management with trends in COP usage and costs that could identify
problem areas or potential fraud. Air Traffic Services has an opportunity to improve
its oversight of traumatic injury claims by adopting the best practices used at some
locations.

Limited Tests of Long-Term Cases Did Not Indicate Potential Fraud
In contrast to the problems we found involving traumatic injury claims, we found no
significant indications of widespread abuse involving FAA’s long-term cases based on
limited testing. To test for potential fraud, we reviewed all FAA long-term cases at
one Department of Labor (DOL) region. We reviewed each case for attributes that,
according to DOL investigators, were strong indicators of potential fraud. Those
attributes included compensation payments being made (1) when the claimant was
deceased, (2) when there were little or no medical claims, and/or (3) when there had
been no medical costs claimed for over 3 years.
                                                                                        6




Of the 671 long-term cases we reviewed, we identified 160 (24 percent) that had one
or more of those attributes. Of the 160 cases identified, we examined 37 case files
(23 percent) that had the highest indications of possible fraud and conducted
additional tests to verify information contained in each file. Results of our tests
showed no evidence of fraud involving those cases. For example, payments for
deceased claimants were correctly being made to surviving family members who
qualified for benefits.

CONCLUSION

Air Traffic Services has an opportunity to reduce its future operating costs by
improving oversight of traumatic injury claims involving COP. Controls over
traumatic injury claims need to be improved because: (1) COP costs are a direct
expense to Air Traffic’s operating budget; (2) absences for traumatic injury claims can
adversely impact both staffing and overtime costs; (3) traumatic injury claims can be
subject to abuse and/or fraud; and (4) procedures for managing traumatic injury claims
are not uniform and vary extensively by location.

RECOMMENDATION

We recommend that Air Traffic Services require facility managers to track data and
related costs associated with traumatic injury claims. This information should include
at a minimum: (1) the number and nature of injuries associated with traumatic injury
claims, (2) COP costs by claim, and (3) any overtime costs associated with backfilling
for controllers out on traumatic injury leave.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

On December 11, 2002, FAA provided a response (see Appendix) to our November 1,
2002, draft report. In its response, FAA concurred with our recommendation and
stated that it agreed to “institute a greater effort at tracking cost data associated with
backfill overtime and COP associated with workers’ compensation claims filed for
traumatic injury.”

Although FAA concurred with our recommendation, the agency’s written response
appears to address only the portion of our recommendation pertaining to tracking costs
associated with traumatic injury claims. FAA’s response does not indicate whether
                                                                                       7


the agency will require managers to track historical data on the number and nature of
injuries associated with traumatic injury claims, or COP costs by claim.

FAA’s response indicates that the agency is either not fully considering or not fully
understanding the intent of our recommendation. For example, in its response, FAA
states that the recommended action “will not, by itself, lead to the reduction of claims,
injuries, and costs called for in the Executive Office initiative, Federal Worker 2000.
The recommended action will more completely identify the indirect costs of the
program that impact the operational budget. It will not necessarily mitigate those
costs by reducing claims.”

We disagree. The intent of our recommendation was not for FAA to simply monitor
additional costs associated with its Workers’ Compensation Program.                Our
recommendation was intended to help mitigate FAA’s workers’ compensation costs
by developing better controls for detecting and preventing potential cases of waste,
fraud, or abuse. Information such as the status of claimants, the number of COP days
taken, and the number of claims submitted by each employee are critical for detecting
potential fraud involving traumatic injury claims. As we stated in the report, we were
unable to determine whether the cases we saw during our review were indicative of
systemic problems, because Air Traffic Services does not require facilities to track
information on traumatic injury claims.

Accordingly, we request that FAA clarify its response and identify whether the agency
concurs with our recommendation to require managers to track data associated with
traumatic injury claims and, if so, provide a timeframe for implementing intended
actions.

ACTIONS REQUIRED

In accordance with DOT Order 8000.1C, we request that you provide a clarification to
your response within 30 days including a timeframe for implementing intended
actions, if you concur. If you do not concur, please provide an explanation of your
position. You may provide alternative courses of action that you believe would
resolve the issues presented in this report.

We appreciate the cooperation and assistance provided by you and your staff during
our review. If you have any questions or need further information, please contact me
at (202) 366-1992 or David A. Dobbs, Assistant Inspector General for Aviation
Audits, at (202) 366-0500.

                                           #
                                                               8



cc: Associate Administrator for Air Traffic Services (ATS-1)
                                                                                        9



                           EXHIBIT. METHODOLOGY
We conducted this review in accordance with Government Auditing Standards prescribed
by the Comptroller General of the United States and included such tests as we considered
necessary to provide reasonable assurance of detecting abuse or illegal acts.

Our methodology was designed to answer the following question: Is Air Traffic Services
providing the appropriate oversight of the workers’ compensation program? To answer
this question, we interviewed officials from FAA’s Office of Labor and Employee
Relations to determine FAA’s oversight role in the program and to determine what
policies FAA has over the workers’ compensation program. We also interviewed
Department of Transportation and FAA Budget personnel to determine the costs
associated with the program, agency-wide.

We conducted fieldwork at several field facilities to determine the processes used at
different locations and reviewed case files (long-term and traumatic injury claims) at the
facility and regional level. In addition, we interviewed officials from the Department of
Labor to determine what attributes constitute a well-managed workers’ compensation
program and to determine what FAA should be doing to reduce costs of the program. We
also reviewed 671 Department of Labor long-term cases of FAA employees and verified
37 case files for accuracy and potential fraud. Finally, we contacted investigators from
the Department of Labor, FAA, and the Department of Transportation Office of Inspector
General to determine whom managers should contact if they suspect fraudulent claims.
                                                                                                       10


                            APPENDIX. MANAGEMENT COMMENTS


                                                      Memorandum
Subject:                                                            Date:    December 11, 2002
           INFORMATION: Workers' Compensation
           Traumatic Injury Claims


  From:    Assistant Administrator for Financial Services        Reply to
                                                                 Attn. of:
             and Chief Financial Officer

    To:    Assistant Inspector General for Aviation Audits

           As requested in your memorandum dated November 1, the following is the Federal
           Aviation Administration’s (FAA) response to your recommendation.

           OIG Recommendation: Air Traffic Services require facility managers to track data and
           related costs associated with traumatic injury claims. This information should include at
           a minimum: (1) the number and nature of injuries associated with traumatic injury
           claims, (2) continuation of pay (COP) costs by claim, and (3) any overtime costs
           associated with backfilling for controllers out on traumatic injury leave.

           FAA Response: Concur. The FAA Air Traffic Services will take action to institute a
           greater effort at tracking cost data associated with backfill overtime and COP
           associated with workers’ compensation claims filed for traumatic injury. The FAA
           agrees that this action will alert agency officials of the true cost of workers’
           compensation claims, i.e., direct chargeback to the Department of Labor and indirect
           operating costs paid by yearly lines of business operating allocations.

           The agency has a concern, however, that this action will not, by itself, lead to the
           reduction of claims, injuries, and costs called for in the Executive Office initiative,
           Federal Worker 2000. The recommended action will more completely identify the
           indirect costs of the program that impact the operational budget. It will not necessarily
           mitigate those costs by reducing claims.

           Before the report, FAA recognized the need to initiate a more concerted effort to
           mitigate the cost of traumatic injury claims. In fact, funding using existing Air Traffic
           operational funds for this effort was initially established in fiscal year 2002, but
           eventually was cut due to a severe budget shortfall. For the current fiscal year, we
           have made this effort a high priority action item for the Air Traffic management team.
                                                                       11




If you have questions or need further information, please contact
Anthony Williams, Budget Policy Division, ABU-100. He can be reached
at (202) 267-9000.




Chris Bertram
